March 2008
Report No. AUD-08-007


FDIC’s Receipt and Assessment of
Savings Association Subsidiary
Notices




            AUDIT REPORT
                                            Report No. AUD-08-007                                                    March 2008

                                            FDIC’s Receipt and Assessment of Savings
                                            Association Subsidiary Notices
   Federal Deposit Insurance Corporation
                                            Audit Results
  Why We Did The Audit
                                            The FDIC has established financial institution requirements associated with the
  We initiated the audit at the             receipt of savings association subsidiary notices and has developed a control
  request of staff from the U.S.            process for reviewing those notices it receives. Based on our comparison of the
  Senate Committee on Banking,              number of subsidiary notices recorded by the OTS and the FDIC in their respective
  Housing and Urban Affairs. The            systems of record, we determined that the FDIC had not received all subsidiary
  objectives of the audit were to
                                            notices from savings associations. Specifically, for calendar years 2005 through
  determine whether adequate
                                            2007, the OTS reported receiving 215 subsidiary notices; however, during the same
  controls are in place to ensure that
  the FDIC: (1) receives subsidiary         period, the FDIC recorded in its Virtual Supervisory Information on the Net
  notices from savings associations         (ViSION) system the receipt of only 178 subsidiary notices—37 fewer notices than
  in accordance with the Federal            the number the OTS recorded. Working with the FDIC, we determined that of the
  Deposit Insurance (FDI) Act and           37 notices, the FDIC’s records showed there was a valid explanation for 19 notices
  (2) reviews these notices to assess       not being recorded in ViSION. For the remaining 18 notices, we determined the
  possible risks posed to the Deposit       following:
  Insurance Fund.
                                                •    in 6 instances the FDIC apparently did not receive required notices from
                                                     savings associations, as required by the FDI Act;
  Background
                                                •    in 5 instances the FDIC received a required notice but did not record the
  The FDI Act requires notice to be                  notice in ViSION and did not review the notice for safety and soundness
  provided to the FDIC and Office                    concerns; and
  of Thrift Supervision (OTS) 30
  days before a savings association             •    as of the date of this report, 7 notices were being researched by FDIC
  establishes or acquires a subsidiary               officials to determine the reasons why they were recorded by the OTS and
  or when the savings association                    not the FDIC.
  elects to conduct any new activity
  through a subsidiary under its            Overall, we concluded that the FDIC has an adequate control process for reviewing
  control. The FDIC’s Case                  subsidiary notices recorded as received. We reviewed a sample of 43 notices
  Manager Procedures Manual                 (24 percent) out of the 178 savings association subsidiary notices the FDIC
  establishes procedures for                recorded in ViSION for the period January 1, 2005 to December 31, 2007. We
  reviewing savings association             found that the FDIC maintained copies of the notices from the savings associations
  subsidiary notices in order to            and had reviewed the notices for possible safety and soundness risks in accordance
  determine whether the new
                                            with its operating procedures. These reviews included obtaining an understanding
  subsidiary or activity of an
                                            of the risks of the proposed subsidiary activity, analyzing the savings association’s
  existing subsidiary raises safety
  and soundness concerns.
                                            financial condition, and obtaining the views of OTS personnel regarding the
                                            proposal in the notice. Finally, the FDIC sent letters of non-objection to the
  As of December 31, 2007,                  savings associations notifying them of the results of the FDIC’s reviews. The
  approximately 830 savings                 FDIC did not identify a concern regarding risk to the Deposit Insurance Fund in
  associations supervised by the            any of the reviews.
  OTS were subject to the subsidiary
  notice requirements.                      The report does not contain any recommendations; rather, it provides information
                                            for the FDIC’s consideration in its ongoing management of this program. DSC
  During the period January 1, 2005         commented that it is committed to assuring that the FDIC receives subsidiary
  to December 31, 2007, the FDIC            notices from savings associations in accordance with the FDI Act and that notices
  recorded the receipt of 178 savings       are appropriately assessed for possible risks posed to the Deposit Insurance Fund.
  association subsidiary notices.



To view the full report, go to www.fdicig.gov/2008reports.asp
    Federal Deposit Insurance Corporation                                                           Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


    DATE:                                     March 18, 2008

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  FDIC’s Receipt and Assessment of
                                              Savings Association Subsidiary Notices
                                              (Report No. AUD-08-007)


    This report presents the results of our audit of the FDIC’s receipt and assessment of
    savings association subsidiary notices. The Federal Deposit Insurance Act (FDI Act)1
    requires that insured savings associations, supervised by the Office of Thrift Supervision
    (OTS), notify the FDIC and the OTS before the savings association establishes or
    acquires a subsidiary or engages in any new activity in a subsidiary. The notice provides
    the FDIC and the OTS with an opportunity to determine whether such action constitutes a
    serious risk to the safety, soundness, or stability of the insured savings association or is
    inconsistent with sound banking principles or with the purposes of the FDI Act.

    We initiated the audit at the request of staff from the U.S. Senate Committee on Banking,
    Housing and Urban Affairs. The objectives of the audit were to determine whether
    adequate controls are in place to ensure that the FDIC: (1) receives subsidiary notices
    from savings associations in accordance with the FDI Act and (2) reviews the notices to
    assess possible risks posed to the Deposit Insurance Fund. We conducted this
    performance audit in accordance with generally accepted government auditing standards.
    Appendix 1 of this report discusses our audit objectives, scope, and methodology in
    detail.


BACKGROUND

    Added by the Financial Institutions Reform, Recovery, and Enforcement Act of 1989,
    section 18(m) of the FDI Act requires notice to be provided to the FDIC and OTS




    1
        Codified to 12 United States Code 1828(m).
30 days before a savings association establishes or acquires a subsidiary or when the
savings association elects to conduct any new activity through a subsidiary under its
control.2 The FDIC Rules and Regulations implement section 18(m) of the FDI Act.
Specifically, FDIC Rules and Regulations, Part 362.15, Acquiring or establishing a
subsidiary; conducting new activities through a subsidiary, provides that:

         No state or federal insured savings association may establish or acquire a
         subsidiary, or conduct any new activity through a subsidiary, unless it files a
         notice in compliance with § 303.142(c) of this chapter at least 30 days prior to
         establishment of the subsidiary or commencement of the activity and the FDIC
         does not object to the notice.3

The Act and regulations do not require the FDIC to monitor receipt of required notices or
provide the FDIC specific authority to take action in the event of non-receipt.

Within the FDIC, the Case Manager Procedures Manual (Procedures Manual)
establishes procedures for reviewing savings association subsidiary notices. According
to the Procedures Manual, regional office staff (generally, a Case Manager4) are to
review notices received from savings associations in order to determine whether the new
subsidiary or activity of an existing subsidiary raises safety and soundness concerns. The
Case Managers are also required to create a record in the FDIC’s Virtual Supervisory
Information on the Net (ViSION)5 system for each notice received. The record should
contain, among other things, a description of the proposed activity in the notice and other
pertinent information deemed necessary by the Case Manager.

As of December 31, 2007, approximately 830 savings associations supervised by the
OTS were subject to the subsidiary notice requirement. During the period January 1,
2005 to December 31, 2007, the FDIC recorded 178 savings association subsidiary
notices in ViSION, as shown in the table on the following page.




2
  Examples of proposed subsidiary activities include: mortgage lending, financial consulting services, and
community development activities.
3
  This requirement does not apply to any federal savings bank that was chartered prior to October 15, 1982
as a savings bank under state law or any savings association that acquired its principal assets from such an
institution.
4
  FDIC Circular 6200.3, Delegations of Authority, delegates issuance of a letter of non-objection for a
savings association subsidiary notice to the FDIC Case Manager.
5
  ViSION provides automated support for many aspects of bank supervision, including safety and
soundness examinations.


                                                      2
    Savings Association Notices
      FDIC Regional           2007              2006                  2005                   Total
           Office
     Atlanta                    6                 10                    12                     28
     Chicago                    8                  6                    12                     26
     Dallas                     3                  4                    10                     17
     Kansas City                1                  1                     3                      5
     New York                  22                 10                    16                     48
     San Francisco             21                 15                    18                     54
      Totals                   61                 46                    71                    178
    Source: ViSION records as of December 31, 2007.



RESULTS OF AUDIT

The FDIC has established financial institution requirements associated with its receipt of
savings association subsidiary notices and has developed a control process for reviewing
those notices it receives. Generally, the process entails the FDIC reviewing notices
received for safety and soundness concerns, entering each subsidiary notice received into
ViSION, and notifying the savings association of the results of the review. Further, the
Procedures Manual requires that a Summary of Investigation (SOI) form be completed
for each notice received and states that comments in the SOI should address conditions or
limitations that may be needed to reduce the risk to the insurance fund or address any
material safety and soundness concerns resulting from the activity or investment.
Additionally, the Procedures Manual states that OTS should be contacted to determine its
position regarding the notice and should receive copies of all correspondence.

Based on our comparison of the number of subsidiary notices recorded by the OTS and
the FDIC in their respective systems of record, we determined that the FDIC had not
received all subsidiary notices from savings associations. Specifically, for calendar years
2005 through 2007, the OTS reported receiving 215 subsidiary notices; however, during
the same period, the FDIC recorded in ViSION the receipt of only 178 subsidiary
notices—37 fewer notices than the number the OTS recorded. Working with the FDIC,
we determined that of the 37 notices, the FDIC’s records showed there was a valid
explanation for 19 notices not being recorded in ViSION.6 For the remaining 18 notices,
we determined that:

      •    in 6 instances the FDIC apparently did not receive notices from savings
           associations, as required by the FDI Act;7


6
  The valid reasons included timing differences between input of the notices into OTS and FDIC systems,
notices that were submitted to the OTS but subsequently withdrawn by the savings association, and notices
that did not meet the FDIC Rules and Regulations, Part 362, requirement for FDIC notification.
7
  According to DSC officials, the FDIC relies on savings associations’ familiarity with Part 362
requirements and on the OTS reminding savings associations, when appropriate, to send notices to the
FDIC.


                                                      3
    •   in 5 instances the FDIC received a required notice but did not record the notice in
        ViSION and did not review the notice for safety and soundness concerns; and

    •   as of the date of this report, 7 notices were being researched by FDIC officials to
        determine the reasons why they were recorded by the OTS and not the FDIC.

Overall, we concluded that the FDIC has an adequate control process for reviewing
subsidiary notices recorded as received. We reviewed a sample of 43 notices (24
percent) out of the 178 savings association subsidiary notices the FDIC recorded in
ViSION for the period January 1, 2005 to December 31, 2007. We found that the FDIC
maintained copies of the notices from the savings associations and completed SOI forms
as required by the Procedures Manual.8 Further, the SOIs and other files we reviewed
contained sufficient evidence to indicate that the FDIC had reviewed the notices for
possible safety and soundness risks. Such evidence included descriptions of the proposed
subsidiary activity, analyses of the savings association’s financial condition, and
indications of the views of the OTS analyst regarding the proposal in the notice. Finally,
the FDIC sent letters of non-objection to the savings associations notifying them of the
results of the FDIC’s reviews. The FDIC did not identify a concern regarding risk to the
Deposit Insurance Fund in any of the reviews.

Because the FDIC received the vast majority of subsidiary notices and the causes for the
FDIC not receiving, recording, or reviewing a limited number of notices do not point to
the need for specific additional controls, we are not making any recommendations at this
time. Instead, this information is provided for the FDIC’s consideration in its ongoing
management of this program.


CORPORATION COMMENTS

On March 13, 2008, the Director, DSC, provided a written response to the draft report.
DSC’s response is provided in its entirety as Appendix 2 of this report. DSC stated that it
is committed to assuring that the FDIC receives subsidiary notices from savings
associations in accordance with the FDI Act and that notices are appropriately assessed
for possible risks posed to the Deposit Insurance Fund.




8
  Of the 43 notices we sampled, 2 were ultimately withdrawn by the savings associations; therefore, the
FDIC was not required to complete an SOI or send a letter of non-objection to the savings association in
these cases.


                                                     4
                                                                                                APPENDIX 1
                            OBJECTIVE, SCOPE, AND METHODOLOGY


Objectives and Scope

      The initial objectives of the audit were to determine whether adequate controls are in
      place to ensure that the FDIC: (1) receives subsidiary notices from savings associations
      in a timely manner and (2) reviews these notices to assess possible risks posed to the
      Deposit Insurance Fund. The first objective required determining whether the FDIC
      received notices in a timely manner, which is defined by the FDI Act as 30 days before
      the beginning of subsidiary operations. Such a determination would have required us to
      contact savings associations and obtain evidence of when the subsidiary began operation,
      which we decided was outside the scope of this audit. Therefore, the audit concentrated
      solely on controls related to the receipt of the notices.

      Our audit scope focused on subsidiary notices received by the FDIC from savings
      associations for the period January 1, 2005 through December 31, 2007. From the
      universe of 178 notices, we selected a non-statistical sample of 43 notices (24 percent)
      from the New York, San Francisco, Dallas, Chicago, and Atlanta regions.9 We reviewed
      the notices to determine whether the FDIC had (1) received notification from the savings
      associations, (2) prepared and signed the SOIs, and (3) sent a copy of non-
      objection/objection letters to respective savings associations.


Methodology

      To achieve our objectives we performed the following:

          •   Conducted interviews with DSC officials to obtain information about the FDIC’s
              process for the receipt of subsidiary notices from savings associations.

          •   Identified the following FDIC policies and procedures related to subsidiary
              notices :
                  o Case Manager Procedures Manual, sections 20 and 47
                  o FDIC delegations of authority
                  o Various regional director’s memoranda

          •   Queried ViSION to obtain a listing of all subsidiary notices recorded as received
              by the FDIC from January 1, 2005 through December 31, 2007.




      9
        The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods. We did not select any notices from the Kansas City region due to the limited number of
      notices processed by that region during the audit period.


                                                          5
                                                                                  APPENDIX 1


          •   Obtained from the OTS a list of subsidiary notices it received from January 1,
              2005 through December 31, 2007 and compared that list to the FDIC’s records.

          •   Analyzed subsidiary notices to determine whether the FDIC received and assessed
              the notices in compliance with applicable FDIC Rules and Regulations and the
              Procedures Manual.

          •   Visited the Atlanta Regional Office to review a sample of its subsidiary notice
              application files to determine whether the files contained all applicable
              documentation.


Internal Control

      We reviewed the Procedures Manual, which describes the steps the FDIC should follow
      in reviewing subsidiary notices. Additionally, we interviewed DSC personnel to identify
      the existence of internal controls for ensuring that subsidiary notices are received and
      reviewed to assess possible safety and soundness concerns.


      Reliance on Computer-processed Data. Our audit objective did not require that we
      separately assess the reliability of computer-processed data to support our significant
      findings and conclusions. In performing this audit, we relied on data from the FDIC’s
      ViSION system. Notwithstanding a few instances where the notices had not been entered
      into ViSION, we believe the ViSION data provided a reasonable basis to support our
      audit tests and conclusions.


      Performance Measurement. We reviewed the FDIC’s 2007 Annual Performance Plan,
      which did not contain specific strategic goals or objectives that related to our audit or
      specific performance measures to gauge performance related to receiving and reviewing
      subsidiary notices.


Compliance with Laws and Regulations

      We determined that three FDIC laws/regulations specifically relate to savings association
      notices:

          •   The FDI Act (12 United States Code 1828(M), Section 18(m), Activities of
              Savings Associations and Their Subsidiaries) - Requires notice to be provided to
              the FDIC 30 days before an insured savings association establishes or acquires a
              subsidiary or when an insured savings association elects to conduct any new
              activity through a subsidiary that the insured savings association controls.




                                                   6
                                                                             APPENDIX 1


   •   FDIC Rules and Regulations Part 303, Subpart H, Activities of Insured
       Savings Associations - lists filing requirements that should be included in a
       completed letter notice or letter application.

   •   FDIC Rules and Regulations Part 362, Subpart D, Acquiring, Establishing, or
       Conducting New Activities Through a Subsidiary by an Insured Savings
       Association - Indicates that no state or federal insured savings association may
       establish or acquire a subsidiary or conduct any new activity through a subsidiary,
       unless it files a notice at least 30 days prior to establishment of the subsidiary or
       commencement of the activity and the FDIC does not object to the notice.

We assessed the risk of fraud related to the audit objective in the course of evaluating
audit evidence.




                                             7
                       APPENDIX 2
CORPORATION COMMENTS




         8
